No. 20-366
IN THE

Supreme Court of the United States
DONALD J. TRUMP,
President of the United States, et al.,
Appellants,
v.
NEW YORK, et al.,
Appellees.

CERTIFICATE OF SERVICE
Oren L. Zeve, a member of the bar of this Court, hereby certifies that all parties
required to be served, as listed below, have been served with a copy of the
accompanying Motion to Affirm for Government Appellees on October 7, 2020, and
that all parties have consented to service by electronic mail:
Counsel for Appellants Donald J. Trump, President of the United States, et al.
Office of the Solicitor General
United States Department of Justice
SupremeCtBriefs@USDOJ.gov
Counsel for Appellees New York Immigration Coalition, et al.
Dale Ho
American Civil Liberties Union Foundation
dho@aclu.org
Executed October 7, 2020
. /s/ Oren L. Zeve
.
Oren L. Zeve
Managing Assistant Solicitor General
New York State Office of the Attorney General
28 Liberty Street
New York, NY 10005

